CREDIT CARD AGREEMENT AND DISCLOSURE STATEMENT
FOR YOUR GECU EMPOWERMENT CREDIT CARD
Disclosure to GECU Empowerment Credit Card Agreement and Disclosure Statements
Disclosure of variable rates and fees are accurate and based on the Prime Rate of 3.25% in effect
as of April 1, 2020 and may have changed. To receive the most recent information, contact GECU
at 1-800-772-4328.
Interest Rates and Interest Charges
Annual Percentage Rate
introductory APR is effective upon the opening of your account if
(APR) for Purchases,
you
are
approved
for a GECU Empowerment credit card and your credit
Balance Transfers, and
score
is
610
and
above.
APR is fixed for the first 6 statement billing cycles
Convenience Checks
following the opening of the account for all purchases, balance transfers, and
convenience checks. After that the variable Standard Rate purchases,
balance transfers, and convenience checks will apply. The Introductory Rate
may end sooner if your payment is late. See explanation below.

1.90%

After that, your APR will

7.90%, 9.25%, 10.65%, 14.90%,

or 17.65% as of 4-1-20, depending on your creditworthiness1
This APR will vary on the market based on the Prime Rate.2
APR for Cash Advances

1.90% introductory APR is effective upon the opening of your account if
you are approved for a GECU Empowerment credit card and your credit
score is 610 and above. APR is fixed for the first 6 statement billing cycles
following the opening of the account for all cash advances. After that the
variable Standard Rate for purchases, balance transfers, and convenience
checks will apply to the remaining balance. The variable APR for Cash
Advances will apply to cash advances conducted after the expiration of the
Introductory Rate. The Introductory Rate may end sooner if your payment is
late. See explanation below.

Penalty APR and When it
Applies
Paying Interest

How to Avoid Paying
Interest on Purchases
Minimum Interest Charge
For Credit Card Tips from
the Consumer Financial
Protection Bureau
Fees and Charges
Annual Fee
Transaction Fees
• Balance Transfer
• Foreign Transaction

2% above your APR for Purchases, not to exceed 17.90%.
The APR will vary on the market based on the Prime Rate.2
None
Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month. We will begin charging interest on cash advances,
balance transfers, and convenience checks on the transaction date.
Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
None
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore

None
None
1% of transaction

Rev. 6/01/21
1

Penalty Fees
• Late Payment
• Over-the-Limit
• Returned Payment

If payment is 10 days or more past due, you will be charged up to $25.
None
Up to $25

How We Will Calculate your Balance: We will use a method called “average daily balance (including
purchases)”. See your account agreement for more details.
Military Lending Act Disclosures: Federal law provides important protections to members of the Armed
Forces and their dependents relating to extensions of consumer credit. In general, the cost of consumer
credit to a member of the Armed Forces and his or her dependent may not exceed an annual percentage
rate (APR) of 36%. This rate must include, as applicable to the credit transaction or account: The costs
associated with credit insurance premiums; fees for ancillary products sold in connection with the credit
transaction; any application fee charged (other than certain application fees for specified credit transactions
or accounts); and any participation fee charged (other than certain participation fees for a credit card
account). Please call us at (844) 351-4328 to receive disclosures orally.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided
in your account agreement.
Loss of Introductory APR: If the account is closed for any reason (including closure based on default of
another GECU account), any introductory APR (the “Introductory APR”) then in effect is forfeited and the
APR that will be applied to the outstanding balance will be the Standard Rate.
1 The

Periodic Rate (DPR) for the APRs listed in the table above are as follows:
Standard Rate DPR
Cash Advance Rate DPR
7.90% APR (.02164% DPR)
9.90% APR (.02712% DPR)
9.25% APR (.02534% DPR)
11.25% APR (.03082% DPR)
10.65% APR (.02918% DPR)
12.65% APR (.03466% DPR)
14.90% APR (.04082% DPR)
16.90% APR (.04630% DPR)
17.65% APR (.04836% DPR)
17.90% APR (.04904% DPR)
17.65% APR (.04836% DPR)
17.90% APR (.04904% DPR)

2

The Standard Rate Annual Percentage Rate (APR) may vary quarterly. The APR is a variable rate
determined quarterly by adding a margin of 4.65% to 14.40%, not to exceed 17.90% APR, (depending on
our review of your application and credit history) to the Prime Rate (Index) which is published in the “Money
Rates” column of The Wall Street Journal on the last business day of each calendar quarter. The Index will
be applied the first day of your billing cycle that ends in the calendar month following each quarter end. Your
account shall generally be reviewed every 12 to 24 months to determine the appropriate margin and credit
score range, and as otherwise required by law. Changes to your APR will be applied upon notification in
accordance with applicable laws and regulations.

Notice: Read and retain this copy of your Agreement and Truth-in-Lending Disclosure for
future reference.
TERMS USED IN THIS AGREEMENT: This Agreement and Disclosure Statement
(“Agreement”) cover your GECU Empowerment credit card (“Account”) with us. In this
Agreement, the word “you” and “your” means any person who signs the GECU Empowerment
credit card Application (“Application”) or any person who uses the Card(s). “We,” “our,” and “us”
means GECU, primary address located at 1225 Airway Drive, El Paso, TX 79925. The “Card”
means any credit card issued to you or those designated by you under the terms of this
Agreement. “Use of the Card” means any procedure used by you, or someone authorized by you,
to make a purchase or an advance whether or not the purchase or advance is evidenced by a
signed written document. “Unauthorized use” means the use of your Card by a person, other than
you, who does not have actual, implied or apparent authority for such use, and from
Rev. 6/01/21
2

which you receive no benefit. In this Agreement, any plural terms shall be deemed singular and
any singular terms shall be deemed plural when context and construction so require.
EXTENSION OF CREDIT: If your application is approved, we may, at our discretion, establish an
Account in your name and cause one or more Cards to be issued to you or those designated by
you. In such event, you authorize us to pay for your Account, all items reflecting credit purchases,
balance transfers, convenience checks, and cash advances obtained through use of the Card.
Being a member of GECU is necessary to obtain and maintain use of the Card.
NOTE:

You must qualify for a minimum credit line of $2,000 to receive GECU Empowerment credit
card benefits. For a complete description of benefits, please refer to the summary of benefits
provided with your new card.
JOINT APPLICANT LIABILITY: If this Agreement is executed by more than one person, each of
you shall be jointly and individually liable to us for all charges made to the Account, including
applicable fees. In addition, you agree that each of you designates the other as agent for the
purpose of making purchases extended under this Agreement and each use of your Account shall
be an extension of credit to all. Notice to one of you shall constitute notice to all. Any joint
cardholder may remove him/herself from responsibility for future purchases at any time by
notifying us in writing. However, removal from the Account does not release you from any liability
already incurred.
CONVENIENCE CHECKS: We may, at our discretion, issue checks to you. By signing such
checks, you authorize us to pay the item for the amount indicated and post such amount as a
cash advance to your Account. We do not have to pay any item which would cause the
outstanding balance in your Account to exceed your credit limit. We may reject and return unpaid
any Convenience Check you write for any reason. Checks used to access your account may not
be accepted if made to cash, you, or if presented in a format other than the checks we issue.
Convenience checks may not be used to pay off existing debt at GECU.
OTHERS USING YOUR ACCOUNT: If you allow anyone else to use your Card, you will be liable
for all credit extended to such persons. You promise to pay for all purchases, balance transfers,
convenience checks, and cash advances made by anyone whom you authorize to use your Card,
whether or not you notify us that he or she will be using it. If someone else is authorized to use
your card and you want to end that person’s privilege, you must notify us in writing and, if he or
she has a Card, you must return the Card with your written notice for it to be effective.
CREDIT LIMITS: You promise that payments we make for your Account(s) resulting from use of
the Card will, at no time, cause the outstanding balance of your Account to exceed your credit
limit as established by us or as adjusted from time to time at our discretion.
TRANSACTION LIMITS: The maximum balance permitted for all cash advance transactions is
50 percent of your credit limit, subject to the terms and limitations outlined herein. Balance
transfers between the GECU credit card programs are not permitted.
PROMISE TO PAY: You promise to pay us in U.S. dollars for (a) all purchases, cash advances,
balance transfers, and convenience checks made by you or anyone whom you authorize to use
the Card or Account; (b) FINANCE CHARGES and other charges or fees; (c) collection costs and
attorneys’ fees as permitted by applicable law and any costs incurred in the recovery of the Card;
and (d) credit in excess of your credit limit that we may extend to you. At the end of each monthly
billing cycle for which you have a balance on your Account, you will be furnished with a

Rev. 6/01/21
3

periodic statement showing (i) the “Previous Balance” (the outstanding balance in the Account at
the beginning of the billing cycle), (ii) the amount of all cash advances, purchases, balance
transfers, convenience checks, over-the-limit fees, late charges, annual fees, FINANCE
CHARGES and other charges or fees posted to your Account during the billing cycle, (iii) the
amount of all payments and credits posted to your Account during the billing cycle and (iv) the
“New Balance” which is the sum of (i) and (ii) minus (iii).
You agree to pay for your Account on or before the Payment Due Date shown on the monthly
periodic statement either the entire New Balance or a Minimum Payment equal to any amount,
which is at least 2% of the New Balance or $25.00 whichever is greater, plus any amount in
excess of the credit limit established by us and any past due minimum payments. If the New
Balance is $25.00 or less, you agree to pay it in full. You may make extra payments in advance
of the due date without a penalty and you may repay any funds advanced, credit extended or
amount outstanding at any time without a penalty for early payment. Regardless of the amount of
any extra payment during a given month, a monthly payment will be required the following month
if a balance remains in your Account.
COST OF CREDIT: You will pay a FINANCE CHARGE for all advances made against your
Account. FINANCE CHARGES for cash advances, balance transfers, and convenience checks
begin to accrue on the date of the advance. New purchases will not incur a FINANCE CHARGE
on the date they are posted to your Account if you have paid the Account in full by the Payment
Due Date shown on your previous monthly statement or if there was no previous balance. Cash
Advances incur a FINANCE CHARGE from the date they are posted to your Account.
No additional FINANCE CHARGES will be imposed on new purchases shown on your statement
if the New Balance shown on the statement is paid in full by the Payment Due Date reflected on
the statement. For purchases made with your Card, there is at least a 25-day grace period within
which the New Balance may be paid without incurring a FINANCE CHARGE.
The Periodic Rate portion of the FINANCE CHARGE is figured by applying the periodic rate to
the “Balance Subject to FINANCE CHARGE” which is the “Average Daily Balance” of your
Account, including current transactions. The Average Daily Balance is arrived at by taking the
beginning balance of your Account each day, adding new cash advances, balance transfers, and
convenience checks, and unless you pay your entire Account Balance in full by the Payment Due
Date shown on your previous monthly statement or there is no previous balance, adding in new
purchases, and subtracting any payments or credits and unpaid FINANCE CHARGES. This gives
us the daily balance. The daily balances for the billing cycle are then added together and divided
by the number of days in the billing cycle. The result is the “Average Daily Balance.” The Periodic
Rate portion of the FINANCE CHARGE is determined by multiplying the Average Daily Balance
by the number of days in the billing cycle and applying the respective periodic rate to the product.
If your periodic rate is computed based on an Index, your periodic rate(s) may vary.
If your Account features an Introductory Rate, you will pay an Introductory Rate FINANCE
CHARGE for purchases made at the periodic rate and corresponding ANNUAL PERCENTAGE
RATE (APR) and for the time period set forth. Thereafter, the ANNUAL PERCENTAGE RATE
may vary quarterly. The APR (other than the Introductory APR) is a variable rate determined
quarterly by adding a margin of 4.65% to 14.40%, not to exceed 17.90% APR, (depending on our
review of your application and creditworthiness) to the Prime Rate (Index). This Index as
published in the “Money Rates” column of The Wall Street Journal on the last business day of
each calendar quarter. If the last business day of a calendar quarter falls on a weekend or a
holiday, then the Index published on the preceding business day for that month will be used.

Rev. 6/01/21
4

The Index will be applied the first day of your billing cycle that ends in the calendar month
following each quarter end. Your account shall generally be reviewed every 12 to 24 months to
determine the appropriate margin and credit score range, and as otherwise required by law.
Changes to your ANNUAL PERCENTAGE RATE will be applied upon notification in
accordance with applicable laws and regulations.
The ANNUAL PERCENTAGE RATE for purchases, cash advances, balance transfers, or
convenience checks in any given billing cycle, except for any Introductory Rate period, will be the
Index plus the margin as set forth in the Additional Disclosure. The ANNUAL PERCENTAGE
RATES for purchases, balance transfers, and convenience checks are referred to as the Standard
Rate. The daily periodic rate and corresponding ANNUAL PERCENTAGE RATE for purchases,
cash advances, balance transfers, and convenience checks are set forth in the Additional
Disclosure.
For all, purchases, cash advances, balance transfers, and convenience checks, the Standard
Rate ANNUAL PERCENTAGE RATE will never be greater than 17.90% with a corresponding
Standard Rate Daily Periodic Rate of .04904%.
Please note that the terms of your account, including any of the ANNUAL PERCENTAGE
RATES, are subject to change. Future changes to the ANNUAL PERCENTAGE RATES will be
in accordance with the Agreement and Disclosure Statement for your account.
PENALTY APR: No Penalty APR.
LIABILITY FOR UNAUTHORIZED USE: Under MasterCard’s® zero liability policy, you will not
be liable for an unauthorized transaction, as long as you exercised reasonable care in
safeguarding the card from risk of loss or theft, and upon becoming aware, promptly notify our
designee orally or in writing of the loss, theft, or possible unauthorized use at Card Services,
Dispute Processing, P.O. Box 10409, Des Moines, IA 50306, Telephone Number 1.800.810.2252.
In any case, your maximum liability for unauthorized use of the Card will not exceed $50.00 and
you will not be liable for any unauthorized use that occurs after you notify our designee of the
address or telephone number above.
SKIP PAYMENT OPTION: We may designate a billing period in which you will have an option to
skip a payment or pay less than the Minimum Payment Due. If you exercise this option, FINANCE
CHARGES will accrue based on your “Average Daily Balance” as described in the GECU
Empowerment Credit Card Agreement and Disclosure Statement.
CREDITING OF PAYMENTS: Payments made on your Account at the address designated for
payment on the monthly periodic statement or in-person payments at a branch made prior to the
close of business will be credited on the date of receipt. If the date of receipt is not a business
day, your payment will be credited on the first business day following receipt. Payments on your
Account will be applied first to collection costs, then to any FINANCE CHARGE and to other fees
due, and then to the unpaid principal balance as required by law. We reserve the right to withhold
credit availability on any payment. Interest paid or agreed to be paid shall not exceed the
maximum amount of interest permissible under applicable law, and in any contingency
whatsoever, if we shall receive anything of value deemed interest under applicable law which
would exceed the maximum amount of interest permissible under applicable law, the excessive
interest shall be applied to the reduction of the unpaid principal amount or refunded to you.

Rev. 6/01/21
5

ATM TRANSACTIONS: When you conduct a transaction at an ATM, you may be charged a
fee by the ATM operator or any network used to complete the transfer, which may include
GECU owned ATMs.
LATE PAYMENT FEE: If a payment is 10 days or more past due, you will be charged a Late
Payment Fee up to $25. If your minimum payment is less than $25, the Late Payment Fee will be
equal to your minimum payment.*
ANNUAL FEE: No Annual Fee.
OVER-THE-LIMIT FEE: No Over-the-Limit Fee.
RETURNED PAYMENT FEE: We will charge you a Returned Payment Fee up to $25 if any
payment you send us is returned unpaid for any reason. We will charge you this fee each time
any payment is returned unpaid, even if it is paid upon resubmission. If your minimum payment is
less than $25, the Returned Payment Fee will be equal to your minimum payment.*
*MULTIPLE FEES: In the event that the Late Payment Fee and the Returned Payment Fee apply
concurrently, we will not charge you more than one fee for a single event.
OTHER FEES:
Convenience Check Fee ....................................... $4.00
Duplicate Statement Fee ........................................ $5.00
Expedited Card Fee…........................................ $29.50
Balance Transfer Stop Payment Fee… ................ $25.00
Telephone Operator Assistance Fee
(for expedited service) ........................................ $5.00
SECURITY: YOU GRANT THE CREDIT UNION A SECURITY INTEREST UNDER THE
UNIFORM COMMERCIAL CODE AND UNDER ANY COMMON LAW RIGHTS THE CREDIT
UNION MAY HAVE IN ANY GOODS YOU PURCHASE. YOU SPECIFICALLY GRANT US A
SECURITY INTEREST IN ALL INDIVIDUAL AND JOINT ACCOUNTS YOU HAVE WITH US
NOW AND IN THE FUTURE TO SECURE REPAYMENT OF CREDIT EXTENSIONS MADE
UNDER THIS AGREEMENT. THE GRANTING OF THIS SECURITY INTEREST IS A
CONDITION FOR THE ISSUANCE OF ANY CARD WHICH YOU MAY USE, DIRECTLY OR
INDIRECTLY, TO OBTAIN EXTENSIONS OF CREDIT UNDER THIS AGREEMENT. SHARES
AND DEPOSITS IN AN INDIVIDUAL RETIREMENT ACCOUNT (IRA) OR ANY OTHER
ACCOUNT THAT WOULD LOSE SPECIAL TAX TREATMENT UNDER STATE OR FEDERAL
LAW IF GIVEN AS SECURITY ARE NOT SUBJECT TO THE SECURITY INTEREST YOU ARE
GIVING. COLLATERAL SECURING OTHER LOANS WITH US MAY ALSO SECURE
PAYMENTS FOR YOUR ACCOUNT UNDER THIS AGREEMENT. YOU MAY WITHDRAW
THESE OTHER SHARES UNLESS YOU ARE IN DEFAULT. WHEN YOU ARE IN DEFAULT,
YOU AUTHORIZE US TO APPLY THE BALANCE IN THESE ACCOUNTS TO ANY AMOUNTS
DUE. FOR EXAMPLE, IF YOU HAVE AN UNPAID CREDIT CARD BALANCE, YOU AGREE
WE MAY USE FUNDS IN YOUR ACCOUNT(S) TO PAY ANY OR ALL OF THE UNPAID
BALANCE. YOU ACKNOWLEDGE AND AGREE THAT YOUR PLEDGE DOES NOT APPLY
DURING ANY PERIODS WHEN YOU ARE A COVERED BORROWER UNDER THE MILITARY
LENDING ACT. FOR CLARITY, YOU WILL NOT BE DEEMED A COVERED BORROWER,
AND YOUR PLEDGE WILL APPLY, IF: (I) YOU ESTABLISHED YOUR CREDIT CARD
ACCOUNT WHEN YOU WERE NOT A COVERED BORROWER; OR (II) YOU CEASE TO BE
A COVERED BORROWER.

Rev. 6/01/21
6

UNLESS OTHERWISE PROHIBITED BY FEDERAL AND/OR STATE LAW, COLLATERAL
SECURING OTHER LOANS YOU HAVE WITH THE CREDIT UNION MAY ALSO SECURE
THIS LOAN, EXCEPT THAT A DWELLING WILL NEVER BE CONSIDERED AS SECURITY
FOR THIS ACCOUNT, NOTWITHSTANDING ANYTHING TO THE CONTRARY IN ANY OTHER
AGREEMENT.
DEFAULT: You will be in default: (1) if you fail to make any payment on time; (2) if you fail to keep
any promises you have made under this or any other agreement with us; (3) if you are the subject
of an order of relief under Title 11 of the U.S. Code (Bankruptcy); (4) if anyone tries, by legal
process, to take any of your money maintained with us; (5) if you have given us false or inaccurate
information in obtaining your Card; or (6) if we reasonably believe that you are unable or unwilling
to repay your obligations to us.
ACCELERATION: If you are in default, without notice to you, we may accelerate your debt and
call any amounts you owe immediately due and payable, plus FINANCE CHARGES which shall
continue to accrue until the entire amount is paid. If you default on your Account you authorize us
to transfer the balance of your Account to another linked account of yours. You expressly waive
any right to notice of our intention to accelerate and notice that your debt has been accelerated.
TERMINATION AND CHANGES: You may terminate this Agreement, by written notice, as to
future advances at any time. We can terminate this Agreement at any time subject to such notice
as may be required by applicable law. Termination by either party shall not affect your obligation
to repay any payments made for your Account resulting from use of the Card as well as FINANCE
CHARGES and other related charges. We may change the terms of this Agreement, including
the periodic rate, at any time subject to such notice as may be required by applicable law.
CLOSING AN ACCOUNT AND CONTINUATION OF CERTAIN TERMS OF THIS
AGREEMENT: We may close or suspend your Account at any time without prior notice. You may
also close your Account by notifying us. Once your account is closed, (A) you may not make any
new transactions, and you must destroy all Cards and Convenience Checks; and (B) you must
repay any outstanding balance pursuant to the Terms of this Agreement. Closing the Account will
not prevent transactions from being added to the Account and you will remain liable for all unpaid
balances including transactions made or processed after the date the Account is closed.
NOTIFICATION ADDRESS FOR INFORMATION REPORTED TO CONSUMER REPORTING
AGENCIES: We may report the status and payment history of your Account to credit reporting
agencies each month. If you believe that the information we have reported is inaccurate or
incomplete, please notify us in writing at our primary address shown in the Terms of this
Agreement section of this Agreement. Please include your name, address, home telephone
number and Account number.
CREDIT INVESTIGATION: In conjunction with your application for credit and, if approved,
maintenance of your Account, you agree that we have the right to investigate your credit and
employment history, to verify your credit references, to request and use credit reports, and to
report the way you pay your Account to credit bureaus and other interested parties.
ILLEGAL TRANSACTIONS: You may not use your Card for any illegal transaction. You agree
that we may decline to process any transaction that we believe in good faith to be for an illegal
purpose. You agree that we will not be liable for declining to process any such transaction. If we

Rev. 6/01/21
7

do process any transaction that ultimately is determined to have been for an illegal purpose, you
agree that you will remain liable to us under this agreement for any such transaction
notwithstanding its illegal nature. You agree that any illegal use of the Card will be deemed an act
of default under this Agreement. YOU FURTHER AGREE TO WAIVE ANY RIGHT TO TAKE
LEGAL ACTION AGAINST GECU FOR YOUR ILLEGAL USE OF THE CARD AND TO
INDEMNIFY AND HOLD GECU AND MASTERCARD® INTERNATIONAL, INCORPORATED
HARMLESS FROM AND AGAINST ANY LAWSUIT, OTHER LEGAL ACTION OR LIABILITY
THAT RESULTS DIRECTLY OR INDIRECTLY FROM SUCH ILLEGAL USE.
FOREIGN CURRENCY CONVERSION: If you effect a transaction with your MasterCard card in
a currency other than U.S. dollars, MasterCard International will convert the charge into a U.S.
dollar amount. MasterCard International will use its currency-conversion procedure, which is
disclosed to institutions that issue MasterCard cards. Currently the currency-conversion rate used
by MasterCard International to determine the transaction amount in U.S. dollars for such
transactions is generally either a government-mandated rate or a wholesale rate determined by
MasterCard International for the processing cycle in which the transaction is processed, increased
by an adjustment factor established from time to time by MasterCard International. The currencyconversion rate used by MasterCard International on the processing date may differ from the rate
that would have been used on the purchase date or cardholder statement posting date. You agree
that you will not cause or allow the Card to be used in any manner or for any transaction that we
believe poses an undue risk or illegality and we may refuse to authorize any such use or
transaction. You agree that any illegal use of the Card will be deemed an act of default under this
Agreement.
Foreign Transaction Fee: Foreign transaction fees may apply for three types of transactions:
1. Card purchases you make or that are processed outside the U.S.;
2. ATM cash withdrawals made or processed in foreign countries and foreign currencies; or
3. Online purchases from a non-U.S. retailer that uses an overseas bank to process
transactions;
GECU assess a fee as set forth in the Fees and Charges section above.
ADDITIONAL PROVISIONS: Each provision of this Agreement must be considered part of the
total Agreement and cannot in any way be severed from it. However, if any provision of this
Agreement is finally determined to be void or unenforceable under any law, rule, or regulation, all
other provisions of this Agreement will remain valid and enforceable. You understand that this
Agreement is performable in the country and state of the aforementioned credit union in this
Agreement, and the validity, construction, and enforcement of this Agreement shall be governed
by applicable federal law and the laws of the state in which the aforementioned credit union is
primarily located. We do not warrant any merchandise or services purchased by you with the
Card. All purchases and cash advances are extended at the option of the merchant or cash
advancing financial institution and we are not responsible for the refusal of any merchant or
financial institution to honor your Card. The Card remains our property at all times and you agree
to immediately surrender the Card upon demand. You agree to pay all reasonable costs of
collection, including court costs and attorney’s fees, and any costs incurred in the recovery of the
Card. We can accept late payments or partial payments, or check or money orders marked
“payment in full” without losing any of our rights under the Agreement. We can also delay enforcing
any of our rights under this Agreement without losing them. You expressly waive presentment for
payment, demand, protest, and notice of protest and dishonor of same. You agree to give us
prompt notice of any change in your name, mailing address, telephone number or place of
employment.
RECEIPT OF AND AGREEMENT TO TERMS AND CONDITIONS OF AGREEMENT:
Rev. 6/01/21
8

By using the Card, you agree to all the terms and conditions and promise to perform all the
obligations, requirements, and duties contained in this Agreement, and you acknowledge receipt
of a copy of this Agreement.
GECU, 1225 Airway, El Paso, TX 79925 issues your credit card under this Agreement.
WHAT TO DO IF THERE IS AN ERROR ON YOUR STATEMENT
NOTICE OF YOUR BILLING RIGHTS –
KEEP THIS NOTICE FOR FUTURE USE.
This notice contains important information about your rights and our responsibilities under the Fair
Credit Billing Act.
Notify Us in Case of Errors or Questions About Your Statement.
If you think your statement is wrong or if you need more information about a transaction on your
statement, write us on a separate sheet at the address listed on your statement. Write to us as
soon as possible. We must hear from you no later than 60 days after we sent you the first
statement on which the error or problem appeared. You can telephone us, but doing so will not
preserve your rights.
In your letter, provide us with the following information: (a) your name and account number; (b)
the dollar amount of the suspected error; (c) a description of the error and explain, if you can, why
you believe there is an error. If you need more information, describe the item you are not sure
about.
If you have authorized us to pay your credit card bill automatically from your GECU checking
account, you can stop the payment on any amount you think is wrong. To stop the payment, your
letter must reach us three (3) business days before the automatic payment is scheduled to occur.
Your Rights and Our Responsibilities After We Receive Your Written Notice.
We must acknowledge your letter within 30 days, unless we have corrected the error by then.
Within 90 days, we must either correct the error or explain why we believe the statement was
correct. After we receive your letter, we cannot try to collect any amount you question or report
you as delinquent. We can continue to bill you for the amount you question, including FINANCE
CHARGES, and we can apply any unpaid amount against your credit limit. You do not have to
pay any questioned amount while we are investigating, but you are still obligated to pay the parts
of your statement that are not in question. If we find that we made a mistake on your statement,
you will not have to pay any FINANCE CHARGES related to any questioned amount. If we didn’t
make a mistake, you may have to pay FINANCE CHARGES and you will have to make up any
missed payments on the questioned amount. In either case, we will send you a statement of the
amount you owe and the date that it is due. If you fail to pay the amount that we think you owe,
we may report you as delinquent. However, if our explanation does not satisfy you and you write
to us within 10 days telling us that you still refuse to pay, we must tell anyone we report you to
that you have a question about your statement. And, we must tell you the name of anyone we
reported you to. We must tell anyone we report you to that the matter has been settled between
us when it finally is.
If we don’t follow these rules, we can’t collect the first $50.00 of the questioned amount, even if
your statement was correct.
Special Rule for Credit Card Purchases.
If you have a problem with the quality of property or services that you purchased with a credit
card, and you have tried in good faith to correct the problem with the merchant, you may have the
Rev. 6/01/21
9

right not to pay the remaining amount due on the property or services. There are two limitations
on this right: (a) you must have made the purchase in your home state, or if not within your home
state, within 100 miles of your current mailing address; and (b) the purchase price must have
been more than $50.00. These limitations do not apply if we own or operate the merchant or
mailed you the advertisement for the property or services.
GECU MEMBER SERVICE: Call 1.800.810.2252, 24 hours a day, seven days a week. (Please
have account information available).
California residents: Applicants: 1) may, after credit approval, use the credit card account up to
its credit limit; 2) may be liable for amounts extended under the plan to any joint applicant. As
required by law, you are hereby notified that a negative credit report reflecting on your credit
record may be submitted to a credit reporting agency if you fail to fulfill the terms of your credit
obligations.
Florida Residents: You (borrower) agree that, should We obtain a judgment against You, a portion
of Your disposable earnings may be attached or garnished (paid to Us by Your employer), as
provided by Florida and Federal law.
Maryland Residents: To the extent, if any, that Maryland law applies to Your Account, We elect
to offer Your Card Account pursuant to Title 12, Subtitle 9 of the Maryland Commercial Law Article.
Missouri Residents: Oral Agreements or commitments to loan money, extend credit or to forbear
from enforcing repayment of a debt including promises to extend or renew such debt are not
enforceable. To protect You (borrower(s)) and Us (creditor) from misunderstanding or
disappointment, any Agreements We reach covering such matters are contained in this writing,
which is the complete and exclusive statement of the Agreement between Us, except as We may
later agree in writing to modify it.
Nebraska Residents: A credit agreement must be in writing to be enforceable under Nebraska
law. To protect you and us from any misunderstandings or disappointments, any contract,
promise, undertaking, or offer to forebear repayment of money or to make any other financial
accommodation in connection with this loan of money or grant or extension of credit, or any
amendment of, cancellation of, waiver of, or substitution for any or all of the terms or provisions
of any instrument or document executed in connection with this loan of money or grant or
extension of credit, must be in writing to be effective.
New York Residents: New York residents may contact the New York State Department of
Financial Services to obtain a comparative listing of credit card rates, fees, and grace periods.
New York State Department of Financial Services: 1-800-342-3736 or www.dfs.ny.gov.
New York and Vermont residents: At any time, we may obtain your credit reports, for any
legitimate purpose associated with the account or the application or request for an account,
including but not limited to reviewing, modifying, renewing and collecting on your account. On
your request, you will be informed if such a report was ordered. If so, you will be given the name
and address of the consumer reporting agency furnishing the report.
Ohio Residents: The Ohio laws against discrimination require that all creditors make credit equally
available to all creditworthy customers, and that credit reporting agencies maintain separate credit
histories on each individual upon request. The Ohio Civil Rights Commission administers
compliance with this law.
South Dakota Residents: If You believe there have been any improprieties in making this loan or
Rev. 6/01/21
10

in the lender’s loan practices. You may contact the South Dakota Division of Banking at 1601
N. Harrison Ave, Suite 1, Pierre, SD 57501, or by phone at 605.773.3421.
Utah Borrowers: This written Agreement is a final expression of the Agreement between You and
the Credit Union. This written Agreement may not be contradicted by evidence of any oral
Agreement. As required by law, You hereby notified that a negative credit report reflecting on
Your credit record may be submitted to a credit reporting agency if You fail to fulfill the terms of
Your credit obligations.
Married Wisconsin residents: No provision of any marital property agreement, unilateral statement
under Section 766.59, or court decree under Section 766.70 will adversely affect the rights of the
Credit Union unless the Credit Union is furnished a copy of the agreement, statement or decree,
or has actual knowledge of its terms, before the credit is granted or the account is opened.
Please sign if you are not applying for this account or loan with your spouse. The credit being
applied for, if granted, will be incurred in the interest of the marriage or family of the undersigned.
THE FOLLOWING IS REQUIRED BY VERMONT LAW — NOTICE TO CO-SIGNER — YOUR
SIGNATURE ON THIS NOTE MEANS THAT YOU ARE EQUALLY LIABLE FOR REPAYMENT
OF THIS LOAN. IF THE BORROWER DOES NOT PAY, THE LENDER HAS A LEGAL RIGHT
TO COLLECT FROM YOU.

Rev. 6/01/21
11

